IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
KASEEM ALEXANDER,
PETITIONER,
VS.
UNITED STATES OF AMERICA,
RESPONDENT.

PETITION FOR WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE ELEVENTH CIRCUIT

ARTHUR L. WALLACE, III, ESQ.
Counsel for the Defense
Florida Bar No. 769479
Arthur Wallace
Attorney at Law PLLC
1835 E. Hallandale Bch. Blvd.
Ste. 784
Hallandale Bch., FL 33009
Phone/Text: (954) 213-4032
Email:WallaceLawFirm@Yahoo.com

2
QUESTIONS PRESENTED FOR REVIEW
Issue 1: Whether the appellate court erred in affirming the
District Court’s abuse of discretion in overruling
petitioner’s objection to the Presentence Investigation
Report which argued that appellant’s offense level be
reduced to a Level 6 pursuant to U.S.S.G. §2K2.1(b)(2), the
sporting use exception, where appellant’s only offense
conduct was limited to target shooting at a public gun
range with firearms rented from the gun range.

ISSUE 2:

Whether the appellate court erred in affirming

the District Courts abuse of discretion in denying
appellant’s motion for a downward sentencing variance under
18 U.S.C. § 3553(a) where appellant’s only offense conduct
involved target shooting at a public gun range.

3
- PrefixIN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
KASEEM ALEXANDER,
PETITIONER,
VS.
UNITED STATES OF AMERICA,
RESPONDENT.

PETITION FOR WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE ELEVENTH CIRCUIT
The Petitioner, KASEEM ALEXANDER, respectfully prays
that a writ of certiorari issue to review the judgmentorder of the United States Court of Appeals for the
Eleventh Circuit entered on September 10, 2020, Case No.
20-10436; Southern District of Florida Case Number 19-cr60146-JIC.

4
TABLE OF CONTENTS
TABLE OF CONTENTS

4

TABLE OF CITATIONS

5

OPINION BELOW

6

JURISDICTION

6

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

6

STATEMENT OF THE CASE

7

COURSE OF PROCEEDINGS

7

STATEMENT OF FACTS

9

REASONS FOR GRANTING THE WRIT

20

CONCLUSION

39

5
TABLE OF CITATIONS
Cases
United States v. Barrington, 648 F.3d 1178,
1204 (11th Cir. 2011)

34

United States v. Bossinger, 12 F.3d 28,
29 (3d Cir.1993)

22

United States v. Caldwell, 431 F.3d 795,
799 (11th Cir. 2005)

32

United States v. Clay, 483 F.3d 739,
743 (11th Cir. 2007)

34

United States v. Collins, 313 F.3d 1251,
1257 (10th Cir.2002)

22

United States v. Crisp, 454 F.3d 1285,
1292 (11th Cir. 2006)

34

United States v. Denis, 297 F.3d 25,
32 (1st Cir.2002)

22

Gall v. United States, 552 U.S. 38, 47 (2007)

38

U.S. v. Hanson, 534 F.3d 1315 (10th Cir. 2008)

12

United States v. Irey, 612 F.3d 1160,
1189 (11th Cir. 2010)

38

United States v. Lewitzke, 176 F.3d 1022,
1028 (7th Cir.1999)

22

United States v. Rothenberg, 610 F.3d 621,
624 (11th Cir. 2010)

33

6
United States v. Rosales-Bruno, 789 F.3d 1249,
1261, 1263–64 (11th Cir. 2015)

34

United States v. Shell, 972 F.2d 548 (5th Cir. 1992)

29

Statutes and Rules
Title 18 U.S.C. 922(g)

7

18 U.S.C. § 3553(a)

15

Title 28, United States Code Section 1254(1)

6

U.S.S.G. 2K2.1(b)(2)

12
OPINION BELOW

On September 10, 2020, the Eleventh Circuit Court of
Appeals entered its opinion-order affirming Petitioner’s
convictions and sentence, Case No. 20-10436. A copy of the
opinion-order is attached hereto as Appendix A.
JURISDICTION
Jurisdiction of this Court is invoked under Title 28,
United States Code Section 1254(1).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Petitioner has been deprived of his liberty without
due process of law as guaranteed by the Sixth and
Fourteenth Amendment to the Constitution of the United
States.
STATEMENT OF THE CASE
Petitioner was the Defendant in the District Court and
will be referred to by name or as the petitioner.

The

7
respondent, the Untied States of America will be referred
to as the government.

The record will be noted by

reference to the volume number, docket entry number of the
Record on Appeal as prescribed by the rules of this Court.
References to the transcripts will be referred to by the
docket entry number and the page of the transcript.
The
sentence

petitioner
in

the

is

incarcerated

Bureau

of

Prisons

and
at

is

the

serving
time

of

his
this

writing.
Course of the Proceedings and Disposition in the Court
Below
On May 30, 2019 the grand jury returned an indictment
against defendant alleging a single violation of Title 18
U.S.C. 922(g) generally referred to a being a felon and
being in possession of a firearm within the Southern
District of Florida (in this case renting and using
firearms on one occasion at Broward County, Florida public
gun range).

[D.E. 1].

On July 12, 2019, petitioner made

his initial appearance in the Southern District of Florida
and counsel was appointed.

[D.E. 8].

On July 22, 2019

petitioner was arraigned and entered his not guilty plea
with bail being set in the amount of a $100,000.00
personal surety bail to be cosigned by relatives.

On July

8
26, 2019 the bail was posted and petitioner was released
shortly thereafter.

On September 5, 2019 a superseding

indictment was filed which, without altering the charge or
number of counts, rephrased the language of count one to
reflect recent judicial changes regarding the scienter
requirement as to the element of knowledge of the basis of
disqualification to possess a firearm.

[D.E. 15].

On

September 17, 2019 petitioner was arraigned on the
superseding indictment and re-entered his not guilty plea.
[D.E. 18].

On September 25, 2019, petitioner appeared

before the district court and changed his plea to guilty to
count one and charged in the superseding indictment.
19].

[D.E.

At that hearing the court received, reviewed and

accepted the case factual proffer statement and factual
basis for the guilty plea which was filed with the court,
also on September 25, 2019.

[D.E. 20].

On November 22,

2019, the Presentence Investigation Report was filed with
the court and served upon the parties.

[D.E. 24].

On

December 11, 2019 petitioner filed his objection to the
Presentence Investigation Report and his written Motion for
Downward Variance.

[D.E. 25].

On January 23, 2020

petitioner filed his certificate of program completion and
graduation dated January 21, 2020 from The Focus Forward
Project completed in New York City, appellant’s home, and

9
letters of support from persons with knowledge of
defendant’s character in aid of sentencing.

[D.E. 29].

On

January 29, 2020 petitioner appeared before the district
court for sentencing where the district court considered
and rejected petitioner’s objections to the Presentence
Investigation Report and Motion For Downward Variance and
sentenced petitioner to a term of 24 months in the Bureau
of Prisons followed by 36 months of supervised release and
the $100.00 special assessment.

[D.E. 32 and 33].

On

February 1, 2020 petitioner filed his notice of appeal and
this appeal ensued.

[D.E. 35].
Statement of the Facts

The facts and factual basis on appeal arise from the
record of the filed transcripts of the change of plea [D.E.
42] and sentencing [D.E. 45] proceedings as well as the
factual proffer filed in support of appellant’s guilty plea
[D.E. 20] and the Presentence Investigation Report [D.E.
24] filed in the district court.

The evidence of

petitioner’s offense was as follows: During his change of
plea hearing, petitioner affirmatively agreed that the
facts contained in his two-page factual proffer document
filed were all true and correct [D.E. 42-10-11].

The

factual proffer document signed by petitioner, his counsel

10
and the government included the following facts: “On April
23, 2018, the defendant, along with three other
individuals, went to Big Al's Pawn & Gun Shop located at
3300 W. Hallandale Beach Blvd. in Pembroke Park, FL. The
group rented five (5) firearms and several rounds of
ammunition. Glock manufactured three (3) of the firearms.
One of the firearms was an M & P 9mm pistol, and the last
firearm

was a Kass Vector short-barreled rifle. The

defendant created a video of himself inside the gun range
and posted it on social media. The defendant held several
of the firearms and loaded them with ammunition. The
defendant also tried several of the firearms. The defendant
indicated he was at Big Al's during the video. Law
enforcement personnel confirmed the defendant flew from New
York, NY to Fort Lauderdale, FL aboard JetBlue airlines on
April 20, 2018. Law enforcement personnel also secured the
waiver form completed by the defendant on April 23, 2018 as
well as the receipt showing the type of firearm s and
amount of ammunition rented by the defendant. All of the
firearms and all of the ammunition were manufactured
outside the State of Florida and had, therefore, moved in
interstate and foreign commerce prior to the defendant
possessing them on April 23, 2018. The defendant knew that,
prior to April 23, 2018, he had been convicted of a crime

11
punishable by a term of imprisonment exceeding one year.
A1l of the events constituting this offense occurred in
Pembroke Park, Broward County, Southern District of
Florida” [D.E. 20-1-2].
The case facts reflected in the Presentence
Investigation Report reiterated and supplemented the
written factual basis case facts as follows:

“On April 23,

2018, Kaseem Alexander and three other individuals went to
Big Al’s Pawn and Gun Shop, located at 3300 West Halladale
Beach Boulevard in Pembroke Park, Florida. The group rented
five firearms and purchased several rounds of ammunition.
Three of the firearms were manufactured by Glock, one was
an M&P 9mm pistol, and the last was a Kass Vector shortbarreled rifle. Alexander created a video of himself inside
the gun range and posted it on social media; he indicated
he was at Big Al’s during the video. Alexander held several
of the firearms and loaded them with ammunition, and he
also fired several of the firearms.

Law enforcement

personnel confirmed Alexander flew from John F. Kennedy
International Airport in Queens, New York, to Fort
Lauderdale/Hollywood International Airport in Fort
Lauderdale, Florida, aboard JetBlue airlines on April 20,
2018. Law enforcement personnel also secured the waiver
form Alexander completed on April 23, 2018, as well as the

12
receipt that reflects the types of firearms and the amount
of ammunition Alexander obtained. All the firearms and
ammunition were manufactured outside the State of Florida
and had moved in interstate and foreign commerce prior to
Alexander possessing them on April 23, 2018. Alexander knew
that prior to April 23, 2018, he was convicted of a crime
punishable by a term of imprisonment exceeding one year”
[D.E. 24-1].
Additionally petitioner signed and submitted his
written statement in support of Adjustment for Acceptance
of Responsibility:

“The defendant provided the following

written statement, dated October 15, 2019, wherein he
admitted his involvement in the offense: My name is Kaseem
Alexander. I fully accept responsibility for my actions as
charged in my Indictment to which I have pled guilty. I
apologize to the government, my family and the Court. I am
sorry that I committed the crime to which I have pled
guilty not that I was arrested, prosecuted and convicted. I
have made a commitment to lead a law abiding life hereafter
and rehabilitate myself for the future of myself, my family
and my community. /s/ Kaseem Alexander” [D.E. 24-5].

In

the Presentence Investigation Report appellant’s base
offense level was computed as follows:

Page 5, Paragraph

10: “Base Offense Level: The guideline for a violation of

13
18 U.S.C. § 922(g)(1) is § 2K2.1. Because the defendant was
a prohibited person at the time the defendant committed the
instant offense, the base offense level is 14.”
5].

[D.E. 24-

The Presentence Investigation Report increased

petitioner’s guideline offense level computation by +2
levels due to the number (five) of firearms possessed at
Big Al’s as follows:

“Specific Offense Characteristics:

Because the offense involved at least three but less than
eight firearms, the offense level is increased by two
levels, § 2K2.1(b)(1)(A). +2” [D.E. 24-5].

The resultant

adjusted offense level reported was a Level 16 [D.E. 24-5].
The Presentence Investigation Report awarded a -3 level
adjustment for acceptance of responsibility by appellant
[D.E. 24-6] yielding a total offense level of Level 13
[D.E. 24-6; Paragraph No. 19].
The Presentence Investigation Report computed +2
criminal history points for petitioner’s conviction of
criminal possession of a weapon and attempted criminal
possession of a weapon in the state of New York [D.E. 24-6;
Paragraph 22].
An additional +3 criminal history points were computed
for petitioner’s conviction of criminal possession of a
weapon in the state of New York [D.E. 24-8; Paragraph 23].

14
The Presentence Investigation Report computed +3
criminal history points for petitioner’s conviction of
criminal possession of a weapon and attempted criminal
possession of a weapon in the state of New York [D.E. 24-6;
Paragraph 21], resulting in a total of eight (8) criminal
history points yielding a criminal history category of IV
[D.E. 24-8; Paragraph 24].
Based upon the forgoing the Presentence Investigation
Report computations at sentencing appellant faced a
statutory imprisonment range of:

“Statutory Provisions:

The maximum term of imprisonment is 10 years, 18 U.S.C. §
924(a)(2)” [D.E. 24-14; Paragraph 61]; and a guideline
imprisonment range of: “Guideline Provisions: Based upon a
total offense level of 13 and a criminal history category
of IV, the guideline imprisonment range is 24 to 30 months”
[D.E. 24-14; Paragraph 62].
Petitioner filed an objection to the Presentence
Investigation Report as follows:

“Paragraph 11 should

include the U.S.S.G. 2K2.1(b)(2) adjustment as “if the
defendant, other than a defendant subject to subsection
(a)(1), (a)(2), (a)(3), or (a)(5), possessed all ammunition
and firearms solely for lawful sporting purposes or
collection, and did not unlawfully discharge or otherwise
use such firearms or ammunition, decrease the offense level

15
determined above to level 6”; the quoted language of the
guideline.

Defendant’s possession of the firearms and

ammunition at Big Al’s shooting range was for the limited
sporting purpose of target shooting at the gun range which
is a federally licensed facility as required by the Bureau
of Alcohol, Tobacco and Firearms.

No firearms or

ammunition were either brought to or taken away from the
range. The range was open for business during the entire
event.

The range was supervised by range staff employees

during the event.

No crime was committed at the range.

Under the facts of this case the sporting purpose reduction
applies.

Defendant’s base offense level is determined

under subsection (a)(6) (prohibited person level 14); and
is such not subject to the exclusion provision covering
subsections (a)(1)-(5). Application of this specific
offense characteristic would affect the guideline
computation as quoted above the offense level “computed
above” would be reduced to level 6.

The remaining

guideline computations would be adjusted accordingly”
[D.E. 25-1-2].

In addition, petitioner requested the court

to grant a downward sentencing variance from the total
offense level guideline range of 24-30 months described
above based upon the target shooting adjustment in the
event that the court determined that the U.S.S.G.

16
2K2.1(b)(2) guideline adjustment (limited possession for
only target shooting) was not applicable based upon an
application of the 18 U.S.C. § 3553(a) sentencing factors
to be considered in addition to the statutory and guideline
minimum and maximum sentences available to the district
court.

The government did not file a written response to

the objection.
At sentencing in support of his guideline objection
and motion for downward sentencing variance, petitioner
took the oath and testified as follows:
By Mr. Wallace:
Q.

Mr. Alexander, on April the 23rd of 2018, did you

travel to Ft. Lauderdale, Florida?
A.

Yes.

Q.

Was that to celebrate your brother’s birthday?

A.

Yes.

Q.

Why did you go to Big Al’s gun range at 300 Hallandale

that day?
A.

My Little brother’s birthday, in which he had just

turned 19 and we just went to have a little fun.
Q.

Was it for purposes of recreation?

A.

Yes.

Q.

Did you have any other purpose to go there other than

recreation?

17
A.

No.

Q.

On April 23rd, 2018, did you possess any other firearms

or ammunition other than the recreation you’ve just
described?
A.

No.

The Defense Attorney:
The Court:

No further questions, your Honor.

Cross?

By Mr. Brown:
Q.

How did you get to South Florida, Mr. Alexander?

A.

Plane.

Q.

Clearly, you couldn’t bring a firearm with you.

A.

No.

Q.

And specifically because you are – and specifically,

are you a three or four time convicted felon?
A.

Two?

Q.

Two?

A.

Mm-hmm.

Q.

Both of them involving weapons?

A.

Yes.

Q.

So, you knew that on April 23rd of 2018 when you got

to South Florida, that you were not allowed to possess a
firearm or ammunition at any time?
A.

Yes.

Q.

You did know that?

18
A.

Yes.

Q.

As you went to Big Al’s, you knew that?

A.

Yes.

Q.

And at Big Al’s, you possessed both the firearm and

ammunition, correct?
A.

Yes.

Mr. Brown:

All right.

I have no further questions

[D.E.

45-6-8].
Additionally, petitioner offered into evidence a blank
firearm transaction report form executed when a customer
purchases a firearm from Big Al’s to emphasize the factual
and legal point that no criminal history inquiry occurs
when a firearm is rented and ammunition is purchased by
customers at the gun range.
Finally, in the Presentence Investigation Report, the
United States Probation Office noted that “the Defense
counsel provided the probation officer with case law that
addresses the reduction pursuant to § 2K2.1(b)(2). The
premise of this argument is that the defendant’s possession
of the firearms and ammunition was for nothing more than
target shooting and was thus for a sporting purpose. As
such, he should receive the sporting exception reduction.
Although there is no Eleventh Circuit case law on point,
counsel provided the case of U.S. v. Hanson, 534 F.3d 1315

19
(10th Cir. 2008) as persuasive authority. The probation
officer maintains that the sporting exception reduction is
not appropriate; however, the Court may consider this basis
as grounds for a variance” [D.E.24-16; Paragraph 74].
At sentencing, the essential case facts concerning
petitioner’s offense conduct giving rise to the issues on
appeal (the single event rental and use of the firearms at
Big Al’s gun range) were not in dispute.

All case facts

were admitted by petitioner in the written factual basis,
the Presentence Investigation Report interview, his
acceptance of responsibility statement and his testimony at
hearing in open court.

It was undisputed that petitioner

knew that he was a convicted felon based upon his prior New
York felony case adjudications and because of this fact
could not lawfully possess a firearm; that petitioner
admitted to possession of firearms at Big Al’s gun range as
described in his testimony and possessed no other firearms
or ammunition at any time.

Petitioner submits that the

undisputed case facts here supported a factual basis for
the requested downward guideline adjustment under U.S.S.G.
§2K2.1(b)(2) (the exception for sporting purpose) and or
the 18 U.S.C. § 3553(a) requested downward variance
sentence both of which were denied at sentencing where the
district court imposed a sentence of 24 months.

20

REASONS FOR GRANTING THE WRIT
Issue 1: Whether the appellate court erred in affirming the
District Court’s abuse of discretion in overruling
petitioner’s objection to the Presentence Investigation
Report which argued that appellant’s offense level be
reduced to a Level 6 pursuant to U.S.S.G. §2K2.1(b)(2), the
sporting use exception, where appellant’s only offense
conduct was limited to target shooting at a public gun
range with firearms rented from the gun range.

Petitioner objected to the Presentence Investigation
Report as follows:

Paragraph 11 should includes the

U.S.S.G. 2K2.1(b)(2) adjustment as “if the defendant, other
than a defendant subject to subsection (a)(1), (a)(2),
(a)(3), or (a)(5), possessed all ammunition and firearms
solely for lawful sporting purposes or collection, and did
not unlawfully discharge or otherwise use such firearms or
ammunition, decrease the offense level determined above to
level 6”; the quoted language of the guideline.
Petitioner’s possession of the firearms and ammunition
at Big Al’s shooting range was for the limited sporting
purpose of target shooting at the gun range which is a

21
federally licensed facility as required by the Bureau of
Alcohol, Tobacco and Firearms.

No firearms or ammunition

were either brought to or taken away from the range. The
range was open for business during the entire event.

The

range was supervised by range staff employees during the
event.

No crime was committed at the range.

Under the

facts of this case the sporting purpose reduction applies.
Petitioner’s base offense level is determined under
subsection (a)(6) (prohibited person level 14); and is such
not subject to the exclusion provision covering subsections
(a)(1)-(5).
Application of this specific offense characteristic
would affect the guideline computation as quoted above the
offense level “computed above” would be changed to level 6.
The remaining guideline computations would be adjusted
accordingly.
In United States v. Hanson, 534 F.3d 1315 (10th Cir.
2008) the court held in a nearly identical case on the
target shooting issue held that: “We reject the
government's argument that the sporting exception could not
apply to Mr. Hanson as a matter of law, because his
admitted purpose does not fall within the scope of a
"lawful sporting purpose" under § 2K2.1(b)(2). A "sporting"
purpose is an intent to engage in sport, "something that is

22
a source of pleasant diversion; a pleasing or amusing
pastime or activity; recreation." Webster's Third New
International Dictionary (1976). "Plinking" casual
recreational shooting, often at cans and other items found
lying around is a form of target shooting, and many people
engage in target shooting for amusement and recreation.
That plinking is casual, rather than organized or
competitive, does not disqualify it as "sporting." We and
several other circuits have assumed that target shooting,
organized or unorganized, is a sporting purpose under the
Guidelines.” Citing: United States v. Collins, 313 F.3d
1251, 1257 (10th Cir.2002); United States v. Lewitzke, 176
F.3d 1022, 1028 (7th Cir.1999); United States v. Bossinger,
12 F.3d 28, 29 (3d Cir.1993) (holding, specifically, that
"plinking" is a sport); see also United States v. Denis,
297 F.3d 25, 32 (1st Cir.2002).
Petitioner submits that using a firearm in a licensed
gun range is the company of other enthusiasts represents an
even greater sporting purpose than the unorganized target
practice cited above requiring application of the (b)(2)
adjustment” [D.E. 25-1-3].
The principal case cited and relied upon by appellant
is United States v. Hanson, 534 F.3d 1315 (10th Cir. 2008)
wherein the court held

that firearm possession for target

23
shooting supported the downward adjustment for target
shooting allowed under § 2K2.1(b)(2) which states “If the
defendant ... possessed all ammunition and firearms solely
for lawful sporting purposes or collection, and did not
unlawfully discharge or otherwise unlawfully use such
firearms or ammunition, decrease the offense level
determined above to level 6.”

The analysis is further

refined by the guideline notes which read as follows:
Under subsection (b)(2), "lawful sporting purposes or
collection" as determined by the surrounding
circumstances, provides for a reduction to an offense
level of 6. Relevant surrounding circumstances include the
number and type of firearms, the amount and type of
ammunition, the location and circumstances of possession
and actual use, the nature of the defendant's criminal
history (e.g., prior convictions for offenses involving
firearms), and the extent to which possession was
restricted by local law.

U.S.S.G. § 2K2.1, cmt. n. 6.

The Hanson court rejected the government’s argument
that the sporting exception could not apply to Mr. Hanson
as a matter of law, because his admitted purpose does not
fall within the scope of a "lawful sporting purpose" under
U.S.S.G. § 2K2.1(b)(2). The court determined that a
"sporting" purpose is an intent to engage in sport,

24
"something that is a source of pleasant diversion; a
pleasing or amusing pastime or activity;
recreation." Webster's Third New International
Dictionary (1976). "Plinking" casual recreational
shooting, often at cans and other items found lying around
is a form of target shooting, and many people engage in
target shooting for amusement and recreation. That
plinking is casual, rather than organized or competitive,
does not disqualify it as "sporting." We and several other
circuits have assumed that target shooting, organized or
unorganized, is a sporting purpose under the
Guidelines. Id at 1317.
The Hanson court cited numerous decisions of fellow
circuit courts interpreting U.S.S.G. § 2K2.1(b)(2) in
support of this rejection holding.

In United States v.

Collins, 313 F.3d 1251, 1257 (10th Cir.2002) conclude that
the district court failed to properly examine surrounding
circumstances in determining whether the purpose behind
Collins's possession was solely a lawful, sporting one, as
is required by the Sentencing Guidelines, and vacated
Collins's sentence and remanded the case for resentencing.
The facts in Collins were as follows.

Collins took his

automobile to a repair shop in Blanding, Utah to have some
repair work done. Finding himself without the means to pay

25
for the repairs, Collins left his hunting rifle, a
Winchester Model 700, 30-06, as security for payment.
Three days later, Collins returned, paid the remaining
$200 he owed on the car, and retrieved his rifle. On
December 4, 2000, Collins returned to the repair shop for
additional repairs and once again used his rifle as
collateral for the balance of the debt owed. The rifle was
eventually taken from the shop by FBI agents and Collins
was arrested. Apart from the two instances in which
Collins used the gun as collateral, there is no evidence
to suggest that Collins's purpose in possessing the gun
was anything other than a lawful sporting one. He had a
hunting permit from the Ute tribe and had been hunting
with the weapon before. There was no evidence of any
unlawful use. The court concluded that the district court
was incorrect to find that application of § 2K2.1(b)(2)
was precluded by two instances of lawful, non-sporting
use. The court instructed that on remand the district
court be directed to look to "surrounding circumstances"
to determine whether the purpose of Collins's possession
was solely a lawful sporting one and whether any use was
unlawful. Collins's sentence is vacated.

Id at 1319.

Appellant’s case facts are much less serious that those in
Collins.

Petitioner never owned or possessed any

26
firearms, nor, engaged in any financial transactions or
was never in any position to use a firearm as collateral
for repairs.

Petitioner’s limited possession clearly

implicates and supports U.S.S.G. § 2K2.1(b)(2) guideline
adjustment.
As further support the Hanson further cites the
decision in United States v. Lewitzke, 176 F.3d 1022 (7th
Cir.1999) where two witnesses testified as to target
shooting that regularly took place in Lewitzke’s backyard
the court determined this activity supported a factual
basis for the section U.S.S.G. § 2K2.1(b)(2) adjustment.
The court there affirmed the judgment based upon the
inference that the concealment of the firearms suggested
some unlawful use other than target shooting which the
court found to be included within the safe harbor of the
sporting use exception.

Id at 1028.

Also relied upon in Hanson was United States v.
Bossinger, 12 F.3d 28 (3d Cir.1993). At his sentencing
hearing, Bossinger that he used the four guns for nothing
other than "plinking," which he defined as shooting at
cans, bottles, and the like in trash dumps or as they were
floating by in a river. In response, the government urged
the court to conclude that Bossinger did not possess the
firearms solely for plinking and argued that, in any event,

27
plinking was not a sport within the meaning of U.S.S.G.
Sec. 2K2.1(b) (2). The district court held that Bossinger
was not entitled to a reduction in base offense level
because, as a matter of law, guns possessed for plinking
are not possessed for lawful sporting purposes. Sport with
firearms, the judge concluded, connotes some form of
competition, either between marksmen in target shooting
competition or between men and beasts in hunting. Informal,
noncompetitive recreation did not, in the district court's
view, constitute sport under U.S.S.G. Sec. 2K2.1(b) (2).
Bossinger argued on appeal that the district court
misinterpreted this Guideline section and the appellate
court agreed holding that in common parlance, "sport"
connotes recreation--something that is a source of pleasant
diversion. See, e.g., 2 Oxford English Dictionary 2979
(compact ed. 1986) ("Pleasant pastime; entertainment or
amusement; recreation; diversion"); Webster's Dictionary
2206 (3d ed. 1971) ("something that is a source of pleasant
diversion; a pleasing or amusing pastime or activity;
recreation").

The appellate court held that “a firearm

possessed "solely for lawful sporting purposes" is,
accordingly, understood to mean a firearm possessed solely
for lawful recreational use. We find nothing in the text or
legislative history of U.S.S.G. Sec. 2K2.1(b) (2) that

28
would justify a more restricted reading.

In particular, we

find no authority, legal or lexicographical, for the
proposition that sport necessarily implies competition. We
hold only that plinking is sport. On remand, the district
court will have to determine whether Bossinger has
established by a preponderance of the evidence that he
possessed the firearms solely for lawful plinking.”
29.

Id at

Again the undisputed offense conduct of petitioner

entailed a much more formal, structured environment for
target shooting; the rental and use of a firearm within a
public gun range.
The Hanson court further cited as authority the
decision in United States v. Denis, 297 F.3d 25 (1st
Cir.2002). At the sentencing hearing Denis testified that
he was an avid hunter and had purchased the rifle because
it was suitable for both hunting and target shooting. He
pointed out that a modification had been made to the
rifle's magazine so that it would hold no more than five
rounds of ammunition, as required by Maine hunting law.
Moreover, the rifle was equipped with a telescopic sight
calibrated to a distance appropriate for hunting and
target shooting. Denis testified that he had used the
rifle regularly for such purposes until 1996, when the
rifle was damaged in a hunting accident. The court held

29
under § 2K2.1(b)(2), it was not enough that Denis had
purchased the rifle for hunting and target shooting, or
that in previous years had hunted frequently, but rather,
Dennis bore the burden of proving that he used the
rifle exclusively for lawful sporting purposes.

Id at 32.

Petitioner’s testimony and all other case facts and
evidence definitively establish that his use the rental
firearm was for the temporary, limited lawful sporting
purpose of recreational target shooting at the public gun
range justifying the U.S.S.G. § 2K2.1(b)(2) downward
guideline adjustment.
Other circuits have addressed the U.S.S.G. §
2K2.1(b)(2) downward adjustment as applied to the
consideration of the surrounding circumstances concerning
firearm possession. In United States v. Shell, 972 F.2d
548 (5th Cir. 1992) the Fifth Circuit articulated the
necessity for examination of the surrounding circumstance
and for the determination of whether possession triggered
the U.S.S.G. § 2K2.1(b)(2) downward adjustment. The court
held that “lawful recreation or collection must the be
sole intended uses.”

Id at 553.

Any defendant, including

petitioner, who possess a firearm for sporting uses or
collection still violates 18 U.S.C. 922(g) which prohibits
a convicted felon from the possession of a firearm.

30
However, as argued before the district court at
sentencing, the Sentencing Commission allows a reduction
in guideline penalty level for certain limited types of
possession which is exactly what the case evidence, facts
and testimony supported in the district court and the
instant appeal.

Petitioner clearly violated the law by

temporarily possessing the firearms at Big Al’s gun range,
for which he expressly admitted in his guilty plea before
the district court, however he was also clearly entitled
to the reduced guideline
Sec. 2K2.1(b) (2).
ammunition.

penalty provisions of U.S.S.G.

Petitioner did not own the firearms or

It was factually undisputed that the firearms

were owned by the gun range and were never possessed at any
other time than during the limited event at the gun range
on April 23, 2018.

There was no allegation or suggestion

of any use other than the recreational activity described
by appellant and observed by the agents in the online video
capture of the event.

There was no allegation of self-

defense or any other means of firearm use outside the
target shooting at the gun range, thus, petitioner’s
firearm possession was solely for the recreational,
sporting use implicating U.S.S.G. 2K2.1(b) (2) and the
downward guideline adjustment to Offense Level 6.

31
The government argued at sentencing in opposition to
the U.S.S.G. 2K2.1(b) (2) adjustment request the following:
“There are no lawful sporting purposes when you’re a
convicted felon” [D.E. 24-25].

The government’s

interpretation of the guideline and the commentary notes,
as argued, would render the sporting and collection
exception language of U.S.S.G. Sec. 2K2.1(b) (2) a nullity
under the law.

This argument is explicitly trumped by the

Hanson decision cited above which held: “We agree with the
defendant that it would be improper for a district judge
to infer a nonsporting purpose from the bare fact of a
defendant's criminal involvement. Every application of
U.S.S.G. § 2K2.1(b)(2) involves a person involved in crime
of some sort, and if that fact alone were sufficient to
outweigh other evidence, such as the defendant's
testimony, no defendant could ever prove entitlement to
the exception.” United States v. Hanson, 534 F.3d 1315,
1318 (10th Cir. 2008).
Petitioner freely and honestly admitted to the
district court that he broke the law by possessing the
firearms at the gun range on April 23, 2018.

The

undisputed sentencing record established that the firearm
possession was limited to the rental of firearms for a
matter of hours within a single day and only at the

32
public, licensed gun range for recreational target
practice and nothing more.

There were no facts involving

any concealment of firearms, drug use, self-defense or
other non-sporting use of the firearms.

The governments

suggestion at sentencing that there are no lawful sporting
uses when you are a convicted felon was a misstatement of
the law as applied to appellants case facts.
The facts in petitioner’s case present a much less
culpable and less serious offense of firearm possession
which under the limited case facts set forth above justify
a reduction in the guideline sentencing range accordingly.
The appellate court’s decision fails to identify any
specific other non-sporting purpose of petitioner’s offense
conduct.

“The facts Alexander admitted when he pled guilty

and did not dispute in the PSI—that he created a video of
himself inside the gun range, indicated in the video that
he was at Big Al’s gun range, and posted the video on
social media—support a finding that he had an additional
purpose and, thus, was not eligible for the sportingpurpose reduction. United States v. Caldwell, 431 F.3d 795,
799 (11th Cir. 2005). Given those undisputed facts, we are
not left with a definite and firm conviction that the
district court erred by concluding that the sportingpurpose reduction did not apply.” United States v.

33
Rothenberg, 610 F.3d 621, 624 (11th Cir. 2010). Appendix;
Page 4.

Posting on the internet is not an recognized

purpose of a firearm at all.

The video merely memorializes

the sporting purpose which was the actual purpose stated in
the opinion.

This reasoning is a departure from other

recognized uses:

sale of the firearm and self-defense, for

example and absent other evidence misses the mark as to the
guideline application.
Most respectfully, the appellate court erred in
refusing to reverse the district court’s refusal to apply
the U.S.S.G. § 2K2.1(b)(2) guideline adjustment and reduce
petitioner’s guidelines to a level 6.
ISSUE 2:

Whether the appellate court erred in affirming

the District Courts abuse of discretion in denying
appellant’s motion for a downward sentencing variance under
18 U.S.C. § 3553(a) where appellant’s only offense conduct
involved target shooting at a public gun range.
The district court is required impose a sentence
sufficient, but not greater than necessary, to comply with
the factors listed in § 3553(a), including the nature and
circumstances of the offense and the history and
characteristics of the defendant; the need to promote
respect for the law and protect the public from the
defendant’s future criminal conduct; and the sentencing

34
guideline range. 18 U.S.C. § 3553(a).

The district court

abuses its discretion if it, for example, (1) fails to
consider relevant factors that were due significant weight,
(2) gives an improper or irrelevant factor significant
weight, or (3) commits a clear error of judgment by
balancing the proper factors unreasonably. United States v.
Irey, 612 F.3d 1160, 1189 (11th Cir. 2010) (en banc). The
district court’s unjustified reliance on a single § 3553(a)
factor may also result in an unreasonable sentence. United
States v. Crisp, 454 F.3d 1285, 1292 (11th Cir. 2006). The
weight given to any specific factor is committed to the
sound discretion of the district court. United States v.
Clay, 483 F.3d 739, 743 (11th Cir. 2007). The district
court possesses broad leeway in deciding how much weight to
give a defendant’s criminal history. United States v.
Rosales-Bruno, 789 F.3d 1249, 1261, 1263–64 (11th Cir.
2015).

Further while the district court must consider the

§ 3553(a) factors, it need not state on the record that it
has considered each one of the factors or discuss each of
them. United States v. Barrington, 648 F.3d 1178, 1204
(11th Cir. 2011).
The facts in petitioner’s case present a less
culpable offense of firearm possession by a felon which
warranted a downward variance sentence from the

35
recommended guideline range of 24-30 months.

Petitioner

pled guilty to the offense and fully and completely
accepted responsibility for his actions. 18 U.S.C. §
3553(a), which requires this Court to impose a sentence
that is “sufficient, but not greater than necessary to
achieve the goals of sentencing.” Mitigating factors that
this Court should take into consideration under § 3553(a)
include: (1) the unduly harsh result of the application of
the criminal history guidelines, (2) the assistance offered
and rendered by the Defendant has assisted the Court and
the justice system in the efficient facilitation of
justice, (3) the Defendant’s age, and (4) a more lenient
sentence is sufficient to deter future criminal conduct.
These factors all combine to establish that the sentence of
24 months within the guideline range of 24-30 months
imprisonment is well beyond what is necessary to achieve
the goals of sentencing under § 3553(a)(2). In the
Presentence Investigation Report, paragraph 74 , the United
States Probation Officer concluded that the sporting
purpose guideline adjustment U.S.S.G. § 2K2.1(b)(2), argued
above, and submitted that the court may in lieu of applying
the U.S.S.G. § 2K2.1(b)(2) guideline consider a downward
variance based upon the specific facts of the case.
Petitioner respectfully requests that in the event the

36
court does not determine that the sporting purpose
guideline adjustment applies that the court order a
downward variance.

The district court has been charged by

Congress to impose a sentence which, in its judgment, is
sufficient but not greater than necessary to meet the goals
of sentencing. Because the Guidelines are no longer
mandatory, the sentences which the district court may
consider include, on the low end, the 0 months and on the
high end the statutory maximum penalty. There are two major
purposes of deterrence. The first is to ensure that the
sentence imposed sufficiently deters the appellant from
similar conduct in the future. The second is deterring
others from becoming involved in a similar crime in the
future. Petitioner’s early decision to plead guilty and
acceptance of responsibility knowing the certainty of a
prison sentence presents direct evidence of specific
deterrence.

Following any prison sentence, it is unlikely

that appellant will ever engage in future criminal
activity.

Petitioner confessed his guilt and pleaded

guilty in open court fully accepted responsibility for his
actions and is serving the sentence imposed.
The recommendation of the United States Probation
Officer in Paragraph 74 of the Presentence Investigation
Report was entitled to certain deference.

Petitioner

37
reincorporates by reference the arguments presented in
Issue 1 above as a supplemental factual basis and legal
basis for a downward variance sentence.

It is difficult to

imagine a less culpable fact pattern of unlawful firearm
possession by a convicted felon than the facts presented on
this appeal, a one-time, hours rental and use of firearms
at a public gun range.

Petitioner, while fully accepting

responsibility for his offense, submits that renting and
using a firearm for a few hours at a gun range under the
supervision of the establishment staff represents the most
minimal level of offense conduct to support punishment, and
thus, would require a sentence commensurate to that
required by U.S.S.G. § 2K2.1(b)(2) at the reduced guideline
level of 6, especially as wherein here, appellant was
cooperative, did not obstruct justice and accepted
responsibility.

Petitioner submits that a sentence

commensurate with offense level 6 would maintain certainty
of punishment, maintain respect for the law, send an
appropriate message to the community while imposing a
mitigated punishment for the offender reflecting the
specific offense factual characteristics.

Further, while

on bail petitioner attended and graduated from the Focus
Forward Project on January 21, 2020. This program provides
an educational curriculum focused on reentry into society

38
of by defendants facing incarceration, wherein petitioner
was commended for his outstanding participation in the
program and his remorse for his offense conduct.
1; Appendix 2].

[D.E.29-

Petitioner submits a sentence

commensurate with the adjusted Offense Level 6 as provided
for in U.S.S.G. § 2K2.1(b)(2) is sufficient but not
greater than necessary to accomplish all of the statutory
purposes of 18 U.S.C. § 3553(a). Gall v. United States, 552
U.S. 38, 47 (2007) and 18 U.S.C. § 3553(a).
The appellate court, in denying relief on direct
appeal found that the district court did not abuse its
discretion “by sentencing Alexander to 24 months’
imprisonment. It had wide discretion to weigh the § 3553(a)
factors, and, given Alexander’s previous firearm offense
convictions, it did not make a clear error in judgment by
giving more weight to the need to promote respect for gun
laws over other sentencing factors.” Appendix Page 5. The
court relied upon

United States v. Irey, 612 F.3d 1160,

1189-90 (11th Cir. 2010).

Petitioner’s United States

Probation Officer conceded that a downward variance
sentence was appropriate in this case due to the mitigation
built into the case facts, possession of a firearm in a
public, licensed, supervised gun range and no other
criminal conduct. To sentence petitioner to the same

39
guideline sentence that an offender carrying a firearm
either in public a vehicle or home or during the commission
of a crime, ignores the mitigated factual basis of limited
firearm possession in a gun range.
Petitioner submits that the appellate court committed
reversible error in affirming the district court’s refusal
to impose a downward variance sentence commensurate with
offense level 6 under the facts of this case.
CONCLUSION
For the foregoing reasons, petitioner respectfully
submits that the petition for writ of certiorari should be
granted.

DATED this 8th day of December, 2020.
/s/ A. Wallace
____________________________
ARTHUR L. WALLACE, III, ESQ.
Counsel for the Defense
Florida Bar No. 769479
Arthur Wallace
Attorney at Law PLLC
1835 E. Hallandale Bch. Blvd.
Ste. 784
Hallandale Bch., FL 33009
Phone/Text: (954) 213-4032
Email:WallaceLawFirm@Yahoo.com

40

APPENDIX “A”

